GUIDE TO
BENEFITS
DINERS CLUB® CARD PREMIER
CARDHOLDER BENEFITS

IMPORTANT INFORMATION.
PLEASE READ AND SAVE.

This Guide to Benefits contains detailed information about extensive travel,
insurance, and retail protection services you can access as a preferred
cardholder. These programs and coverages apply to travel and retail
purchases made on or after November 1, 2020. This Guide supersedes
any guide or program description you may have received earlier.
To file a claim or for more information on any of these services,
call the Mastercard Assistance Center at 1-800-Mastercard or
en Espanol: 1-800-633-4466.
“Card” refers to Diners Club Card Premier card and “Cardholder”
refers to a Diners Club Card Premier cardholder.

DINERS CLUB CARD PREMIER GUIDE TO BENEFITS

BMO Harris Bank N.A.

Key Terms

You and Your refer to the cardholder or authorized user of the covered card.
We, Us, and Our refer to New Hampshire Insurance Company, an AIG company.
Other words and phrases that appear in bold have special meaning.
Administrator means Sedgwick Claims Management Services, Inc., you
may contact the administrator if you have questions regarding this coverage
or would like to make a claim. The administrator can be reached by phone at
1-800-Mastercard.
Assistance Center shall mean the designated assistance teams trained
to provide customer services and coordination of qualified local providers to
travelers in real time.
Authorized driver(s) means a driver with a valid driver’s license issued
from their state of residence and indicated on the rental agreement.
Authorized User means an individual who is authorized to make
purchases on the covered card by the cardholder and is recorded by the
participating organization on its records as being an authorized user.
Cardholder means the person who has been issued an account by the
participating organization for the covered card.
Carry-on luggage means suitcases or other containers specifically
designated for carrying personal property, which are carried on board a
common carrier by you.
Checked luggage means suitcases or other containers specifically
designated for carrying personal property, for which a claim check has been
issued to you by a common carrier.
Common carrier means an air, land, or water motorized transportation carrier
operating under a regularly published schedule and current license as required
by law for the conveyance of passengers. Common carrier does not include
helicopters, taxis, rental cars, hired cars, and private and contract carriers.
Covered card means the active and valid Mastercard-branded Diners Club
Card Premier payment card.
Damage means items that can no longer perform the function they were
intended to do in normal service due to broken parts, material or structural failures.
Eligible cellular wireless telephones means the cellular telephones
associated with the primary line and additional statement from a cellular provider
for the billing cycle preceding the month in which the theft or damage occurred.
Eligible Person means a cardholder who charges his or her monthly bill for an
eligible cellular wireless telephone to his or her covered card. No person or entity
other than the eligible person(s) described shall have any legal or equitable right,
remedy or claim for the insurance proceeds arising out of this coverage.
Evidence of Coverage (EOC) means the summary of benefits set forth
below which describe the terms, conditions, limitations and exclusions of the
coverage provided to you at no additional charge under the group policy.
Representations or promises made by anyone that are not contained in the
group policy are not part of your coverage. In the event the EOC, Key Terms,
or Legal Disclosures of this Guide to Benefits conflict with the provisions of the
group policy, the terms of the group policy govern your coverage.
Family Member means the spouse or domestic partner of you. It includes
unmarried children of you under nineteen (19) years of age. It also includes
unmarried children under twenty-six (26) years of age if a full-time student at an
accredited college or university.
Injury means bodily injury caused by an accident that occurs while you are
covered under this program, and results directly and independently of all other
causes of loss.The injury must be verified by a physician.
Lost means luggage (including personal property contained within) that is
missing for 10 consecutive days and whose whereabouts are unknown to you
or the common carrier.

1

Diners Club Card Premier

Rental agreement means the entire agreement or contract that you
receive when renting a vehicle from a vehicle rental agency that describes in
full all of the terms and conditions of the rental, as well as the responsibility of
all parties under the rental agreement.
Stolen means items that are taken by force and/or under duress or the
disappearance of the item from a known place under circumstances that
would indicate the probability of theft.
United States Dollars (USD) means the currency of the United States
of America.
Vehicle means a land motor vehicle with four wheels that is designed for
use on public roads and intended for use on a bound surface such as concrete
and tarmac. This includes minivans and sport utility vehicles that are designed
to accommodate less than nine (9) passengers.

MasterRental

Various provisions in this document restrict coverage. Read carefully to determine
all rights and duties and what is and is not covered. Please see the ‘Key Terms’
section for the terms used throughout this benefit.
Evidence of Coverage
This EOC replaces all prior disclosures, program descriptions, advertising, and
brochures by any other party. We reserve the right to change the benefits
and features of these programs at any time. Notice will be provided for any
changes. Pursuant to the below terms and conditions herein, when you rent a
vehicle for thirty-one (31) consecutive days or less with your covered card,
you are eligible for benefits hereunder.
A. To get coverage:
• You must initiate and then pay for the entire rental agreement (tax,
gasoline, and airport fees are not considered rental charges) with your
covered card and/or the accumulated points from your covered card at the
time the vehicle is returned. If a rental company promotion/discount of any
kind is initially applied toward payment of the rental vehicle, at least one (1)
full day of rental must be billed to your covered card.
• You must decline the optional collision/damage waiver (or similar coverage)
offered by the rental company.
• You must rent the vehicle in your own name and sign the rental agreement.
• Your rental agreement must be for a rental period of no more than
thirty-one (31) consecutive days. Rental periods that exceed or are intended
to exceed thirty-one (31) consecutive days are not covered.
B. The kind of coverage you receive:
We will pay for the following on a secondary basis:
• Physical damage and theft of the vehicle, not to exceed the limits outlined below.
• Reasonable loss of use charges imposed by the vehicle rental company for the
period of time the rental vehicle is out of service. Loss of use charges must be
substantiated by a location and class specific fleet utilization log.
• Towing charges to the nearest collision repair facility.
This coverage is not all-inclusive, which means it does not cover such things as
personal injury, personal liability, or personal property. It does not cover you
for any damages to other vehicles or property. It does not cover you for any
injury to any party.
C. Coordination of Benefits:
When coverage hereunder is provided on a secondary basis and a
covered loss has occurred, the order in which benefits are determined
shall be made as follows:
1. You or an authorized driver’s primary auto insurance;
2. Collision/damage waiver provided to you by the rental agency;
3. Any other collectible insurance;
4. The coverage provided under this EOC.
If you or an authorized driver’s primary auto insurance or other coverage

Guide to Benefits

2

has made payments for a covered loss, we will cover your deductible and any
other eligible amounts, described under the kind of coverage you receive, not
covered by the other insurance.
Note: In certain parts of the United States and Canada losses to rental
vehicles that are covered by your personal vehicle liability insurance policy
may not be subject to a deductible, which means that you may not be
eligible to receive any coverage under this program. Contact your insurance
provider for full coverage details pertaining to your personal vehicle liability
insurance policy (or similar coverage). If you do not have other insurance or
your insurance policy does not cover you in territories or countries outside
of the United States, coverage is considered primary coverage subject to any
applicable economic and trade sanctions conditions.
D. Who is covered:
The covered card cardholder and those designated in the rental
agreement as authorized drivers.
E. Excluded Vehicles:
This coverage does not apply to any:
• Vehicles not required to be licensed.
• All full-size vans mounted on truck chassis (including, but not limited to, Ford
EconoVan), cargo vans, campers, off-road vehicles, and other recreational vehicles.
• Trailers, motorbikes, motorcycles, and any other vehicle having fewer than
four (4) wheels.
• Antique vehicles (vehicles that are more than twenty (20) years old or have
not been manufactured for at least ten ( 10) years), or limousines.
F. Where you are covered:
Coverage is available worldwide; provided coverage is not available in
countries where:
• This EOC or the group policy is prohibited by that country’s law; or
• The terms of the EOC or the group policy are in conflict with the
laws of that country.
In addition, we shall not be deemed to provide coverage and we shall not be
liable to pay any claim or provide any benefit under the group policy to the extent
that the provision of such coverage, payment of such claim or provision of such
benefit would expose us, our parent company or its ultimate controlling entity to
any sanction, prohibition or restriction under United Nations resolutions or the
trade or economic sanctions, laws or regulations of the European Union or the
United States of America. Wherever coverage provided by this policy would be in
violation of any economic or trade sanctions, such coverage shall be null and void.
G. Coverage limitations:
We will pay the lesser of the following:
•R
 easonable and customary charges of repair or the actual repair amount;
• Wholesale market value less salvage and depreciation;
• The rental agencies purchase invoice less salvage and depreciation;
• The contractual liability assumed by you or an authorized driver of the rental
vehicle; or
• The actual cash value.
In addition, coverage is limited to $500 per incident for the reasonable loss of
use charges imposed by the vehicle rental company for the period of time the
rental vehicle is out of service. We will not pay for or duplicate the collision/
damage waiver coverage offered by the rental agency.
H. What is NOT covered:
This coverage does not apply to:
• Any personal item actually or allegedly stolen from the interior or exterior
of rental vehicles.
• Vehicle keys or portable Global Positioning Systems (GPS).
• Vehicles not rented by the cardholder or authorized user on the covered card.
• Any person not designated in the rental agreement as an authorized driver.
• Any obligations you assume other than what is specifically covered under the
rental agreement or your personal vehicle liability insurance policy or other
indemnity policy.
3

Diners Club Card Premier

• Any actual or alleged violation of the written terms and conditions of the
rental agreement.
• Any actual or alleged loss that occurs while driving under the influence of
drugs or alcohol.
• Any actual or alleged loss associated with racing or reckless driving.
• Any actual or alleged losses involving the theft of the rental vehicle when
you or an authorized driver cannot produce the keys to the rental vehicle
at the time of reporting the incident to the police and/or rental agency, as a
result of negligence. Loss of keys is considered negligence.
•M
 echanical failures caused by wear and tear, gradual deterioration, or
mechanical breakdown.
• S ubsequent damages resulting from a failure to protect the rental vehicle
from further damage.
• Blowouts or tire/rim damage unless caused by theft, vandalism or vehicle collision.
•R
 ental vehicles where collision/damage waiver coverage (or similar
coverage) was accepted/purchased by you.
• Any damage that is of an intentional or non-accidental nature, caused by you
or an authorized driver of the rental vehicle.
•D
 epreciation, diminishment of value, administrative, storage, or other fees
charged by the vehicle rental company.
• Vehicles with a rental agreement that exceeds or is intended to exceed a
rental period of thirty-one (31) consecutive days from a rental agency.
• L osses resulting from any kind of alleged or actual illegal activity.
•D
 amage sustained on any road not regularly maintained by a municipal, state,
or federal entity.
• L osses as a result of war or hostilities of any kind (including, but not limited
to, any actual or alleged invasion, terrorism, rebellion, insurrection, riot, or civil
commotion); confiscation or damage by any government, public authority, or
customs official; risks of contraband; illegal activity or acts.
• Any loss involving the rental vehicle being used for hire, for commercial use,
or as a public or livery conveyance.
• Theft of, or damage to, unlocked or unsecured vehicles.
• Value-added tax, or similar tax, unless reimbursement of such tax is required
by law.
• Vehicles rented on a monthly basis.
• L oss arising from any items not installed by the original manufacturer.
• L oss arising from any inherent damage.
• Damage to windshields which is not the result of a collision or roll-over (damage
to a windshield is covered if such damage is due to road debris or road hazard).
• Vehicle leases or mini-leases.
• Indirect or direct damages resulting from a covered claim.
•C
 harges for gasoline or airport fees.
I. How to file a claim:
•C
 all 1-800-Mastercard or go to www.mycardbenefits.com to initiate
a claim. You must report the claim within sixty (60) days of the loss or the
claim may not be honored.
• You may choose to assign your benefits under this insurance program to the
rental agency from which you rented your vehicle. Please contact us or our
administrator for further details.
• You must submit the following proof of claim documentation within one
hundred and eighty (180) days of the incident or the claim will not be covered:
- Receipt showing the vehicle rental charge.
- Statement showing the vehicle rental charge.
- The rental agreement (front and back).
- Copy of your valid driver’s license (front and back).
- Copy of the declarations page of any personal vehicle liability insurance
policy and/or other valid insurance or coverage.
- Police report when the vehicle is stolen, vandalized (regardless of the
damage), or involved in a collision that requires the vehicle; to be towed, in a
multi-vehicle collision, or the vehicle is not drivable.
- Itemized repair estimate from a factory registered collision repair facility.
- Copy of any vehicle rental company promotion/discount, if applicable.
Guide to Benefits

4

- Copy of the vehicle rental location class specific fleet utilization log, if loss of
use charges are being claimed.You must secure this log from the rental agency.
- Any other documentation that may be reasonably requested by us or our
administrator to validate a claim.

Lost or Damaged Luggage

Evidence of Coverage
Refer to Key Terms for the definitions of you, your, we, us, our, and words that
appear in bold and Legal Disclosures.
A. To get coverage:
You must pay the entire cost of the common carrier ticket(s) with your
covered card and/or accumulated points from your covered card.
B. The kind of coverage you receive:
• Reimbursement for the actual cost of repairing or replacing your checked or
carry-on luggage and personal property contained therein that is lost or damaged.
•C
 overage begins when the luggage is checked in or carried on to the
common carrier by you. This includes curbside check in with facilitydesignated personnel.
• Coverage ends each time you regain possession of the checked luggage from,
or carry the luggage off of the common carrier or twenty-four (24) hours after
you depart from the common carrier, whichever comes first.
• Coverage is secondary to any other applicable insurance or coverage available to
you including benefits provided by the common carrier (including, but not limited
to, goodwill payments, refunds, credit/vouchers). Coverage is limited to only those
amounts not covered by any other insurance or coverage, or common carrier
benefits (including, but not limited to, goodwill payments, refunds, credit/vouchers).
C. Coverage limitations:
Coverage is limited to the actual cost, up to $3,000 per incident of repairing
or replacing your checked and/or carry-on luggage and any personal
property contained within. There is a maximum of two (2) claim(s) per
twelve (12) month period.
D. Where you are covered:
Coverage applies worldwide.
E. What is NOT covered:
• L oss or damage of luggage or personal property for regularly scheduled
short-distance travel under one hundred (100) miles.
• L oss or damage resulting from any dishonest, fraudulent, or criminal act
committed or arranged by you.
• L oss resulting from war or hostilities of any kind (including, but not limited
to, invasion, terrorism, rebellion, insurrection, riot, or civil commotion);
confiscation, expropriation or detention by any government, public authority,
or customs official; illegal activity or acts.
• L oss resulting from contamination by radioactive or hazardous substances,
including mold.
• S porting equipment or musical instruments, unless checked in as luggage
with the common carrier and for which a claim check has been issued.
• E lectronic equipment (including, but not limited to, laptops, PDAs, video/film
cameras, or hearing aids).
• E yeglasses, contact lenses, prosthetic devices, dentures, silverware, furs, household
furniture, or documents (including, but not limited to, visas and IDs).
•P
 lants, shrubs, animals, consumables, and perishables.
•T
 raveler’s checks, tickets of any kind (e.g., for airlines, sporting events,
concerts, or lottery), negotiable instruments, bullion, rare or precious metals,
stamps, and coins, currency or its equivalent.
• Jewelry, art, used or antique items; collectibles of any kind (such as items
designed for people to collect or items that over time become collectibles);
recycled, previously owned, refurbished, rebuilt, or remanufactured items.
•D
 efective material or workmanship, ordinary wear and tear or normal
deterioration.
5

Diners Club Card Premier

• L oss or damage not reported within the time period required, as stipulated
in the claim procedure.
• L oss or damage where the common carrier completely denies a claim
for checked and/or carry-on luggage.
• Items excluded under the common carrier’s coverage
(except carry-on luggage).
• L oss or damage where the common carrier pays the claim in full or repairs
the damage.
• Interest or conversion fees that are charged to your covered card by
the financial institution.
F. How to file a claim:
•V
 isit www.mycardbenefits.com or call 1-800-Mastercard to open a
claim. You must report the claim within sixty (60) days of the incident or the
claim may not be honored.
•R
 eport within twenty-four (24) hours any loss or damage to the common carrier.
• S ubmit the following documentation within one hundred and eighty (180)
days of the date of incident or the claim may not be honored:
- Receipt showing the purchase of common carrier tickets.
- Statement showing the purchase of common carrier tickets.
- Copy of initial claim report submitted to the common carrier.
- Covered card travel point program statement showing the common
carrier ticket was paid for with redeemed points.
- Report from police, if applicable.
- The result of any settlement by the common carrier.
- Receipts showing that your luggage or personal property has actually
been repaired or replaced.
- Any other documentation that may be reasonably requested by us or our
administrator to validate a claim.

Purchase Assurance

Various provisions in this document restrict coverage. Read carefully to
determine all rights and duties and what is and is not covered. Please see the
‘Key Terms’ section for the terms used throughout this benefit.
Evidence of Coverage
Pursuant to the below terms and conditions, when an item you bought with
your covered card is damaged or stolen within ninety (90) days of purchase,
you may be eligible for benefits under this coverage.
A. To get coverage:
You must purchase the new item entirely with your covered card and/or
accumulated points from your covered card for yourself or to give as a gift.
B. The kind of coverage you receive:
•M
 ost items you purchase entirely with your covered card are covered
if damaged or stolen for ninety (90) days from the date of purchase as
indicated on your covered card’s receipt.
• Items you purchase with your covered card and give as gifts also are covered.
• This coverage is secondary to any other applicable insurance or coverage
available to you or the gift recipient. Coverage is limited to only those
amounts not covered by any other insurance or coverage benefit.
C. Coverage limitations:
•C
 overage is limited to the lesser of the following:
- The actual cost of the item (excluding delivery and transportation costs).
- A maximum of $1,000 per loss and a total of $25,000 per cardholder
account per twelve (12) month period.
•P
 urchases that are made up of a pair or set will be limited to the cost of
repair or replacement of the specific item stolen or damaged. If the specific
item cannot be replaced individually or repaired, the value of the pair or set
will be covered not to exceed the limits above.
•C
 overage for actual or alleged stolen or damaged jewelry or fine art will be
limited to the actual purchase price as listed on your cardholder statement,
Guide to Benefits

6

regardless of sentimental or appreciated market value.
• We shall not be deemed to provide coverage and we shall not be liable to pay
any claim or provide any benefit under the group policy to the extent that the
provision of such coverage, payment of such claim or provision of such benefit
would expose us, our parent company or its ultimate controlling entity to any
sanction, prohibition or restriction under United Nations resolutions or the trade
or economic sanctions, laws or regulations of the European Union or the United
States of America. Wherever coverage provided by this policy would be in
violation of any economic or trade sanctions, such coverage shall be null and void.
D. What is NOT covered:
This coverage does not apply to:
• Items left in public sight, out of arm’s reach, lacking care, custody or control
by the cardholder.
• L ost items, and items that mysteriously disappear (the only proof of loss is
unexplained or there is no physical evidence to show what happened to the
item) without any evidence of a wrongful act.
• Items that are actually or allegedly stolen from any location or place (including,
but not limited to, exercise facilities, places of employment, schools, or places of
worship) due to the lack of due diligence by you or another party.
• Items lost, stolen, damaged, or mis-delivered while under the care, custody,
and control of another party or common carrier (including, but not limited to,
airlines, the U.S. Postal Service, UPS, FedEx, or other delivery services).
• Losses due to normal wear and tear, misuse, gradual deterioration, and/or abuse.
• L osses resulting from any dishonest, fraudulent, or criminal act committed or
arranged by you.
• L osses that cannot be verified or substantiated.
• Items covered by a manufacturer’s recall or class action suit.
• Items that you damage through alteration (including, but not limited to,
cutting, sawing, shaping).
•U
 sed or antique items; collectibles of any kind (such as items designed for
people to collect or items that over time become collectibles); recycled,
previously owned, refurbished, rebuilt, or remanufactured items.
• S tolen items without a documented report from law enforcement.
• Items that are damaged during transport via any mode.
• Items stolen from the interior or exterior of a watercraft/boat, aircraft,
motorcycle, automobile or any other motor vehicles.
• Motorized vehicles, including, but not limited to, automobiles, watercraft/boats,
aircraft, and motorcycles, or their motors, equipment, or accessories. Motorized
equipment not designed for transportation and used solely for the upkeep and
maintenance of a residence is eligible for coverage (including, but not limited to,
snow thrower, lawn mowers, and hedge trimmers).
• L and, any buildings (including, but not limited to, homes and dwellings),
permanently installed items, fixtures, or structures.
• Traveler’s checks, tickets of any kind (e.g., for airlines, sporting events, concerts,
or lottery), negotiable instruments, bullion, rare or precious metals, stamps, and
coins, currency or its equivalent.
• L osses caused by insects, animals, or pets.
•P
 lants, shrubs, animals, pets, consumables, and perishables.
• Items purchased for resale, rental, professional, or commercial use.
• Professional services (including, but not limited to, the performance or
rendering of labor or maintenance; repair or installation of products, goods,
or property; professional advice of any kind, including, but not limited to,
information/services or advice secured from any help or support line; or
technical support for software, hardware, or any other peripherals).
• Application programs, computer programs, operating software,
and other software.
• L osses resulting from war or hostilities of any kind (including, but not limited
to, invasion, terrorism, rebellion, insurrection, riot, or civil commotion);
confiscation or damage by any government, public authority, or customs
official; risks of contraband; illegal activity or acts.
• L osses caused by power surge, contamination by radioactive or hazardous

7

Diners Club Card Premier

substances, including mold.
•D
 irect or indirect loss resulting from any Acts of God (including, but not
limited to, flood, hurricane, lightning, and earthquake).
• Losses caused by liquids, fluids, oils, chemicals, or bodily fluids/excretions.
•G
 ame animals, pets, or specimens preserved for display (e.g., fish, birds,
reptiles, or mammals).
• Items actually or allegedly stolen or damaged at a new home construction site.
• Rented, leased, or borrowed items for which you will be held responsible.
• Trip, service, or diagnostic charges in the absence of any covered repairs or
verified failure.
• Any shipping charges, transportation and delivery charges, or promised
time frames for delivery, whether or not stated or covered by the
manufacturer’s warranty.
• Interest or conversion fees that are charged to you on the covered card by
the corresponding financial institution.
E. How to file a claim:
•C
 all 1-800-Mastercard or go to www.mycardbenefits.com to initiate
a claim. You must report the claim within sixty (60) days of the loss or the
claim may not be honored.
• You must submit the following documentation within one hundred and
eighty (180) days of the date you report the claim:
- Repair estimate for damaged item(s).
- Photograph clearly showing damage, if applicable.
- Receipt showing purchase of covered item(s).
- Statement showing purchase of covered item(s).
- Report from police listing any items stolen.
- Copy of the declarations page of any applicable insurance policy(ies) or
protection (including, but not limited to, homeowner’s, renter’s, or auto
insurance policy(ies)).
- Any other documentation that may be reasonably requested by us or our
administrator to validate a claim.
Legal Disclosure
Please see the ‘Legal Disclosure’ section for all disclosures for this benefit.

Extended Warranty

Evidence of Coverage
Refer to Key Terms for the definitions of you, your, we, us, our, and words that
appear in bold and Legal Disclosures.
A. To get coverage:
• You must purchase the new item entirely with your covered card and/or
accumulated points from your covered card for yourself or to give as a gift.
• The item must have an original manufacturer’s (or U.S. store brand)
warranty of twenty-four (24) months or less.
B. The kind of coverage you receive:
• E xtended warranty doubles the original manufacturer’s warranty up to a
maximum of twenty-four (24) months on most items you purchase. For
products with multiple warranty components, each warranty time period
will be extended up to a maximum of twenty-four (24) months. An example
of a product with multiple warranty components includes an appliance with
original manufacturer’s (or U.S. store brand) warranties that differ for parts,
labor, compressor, etc.
• If you purchase a service contract or an optional extended warranty of twentyfour (24) months or less on your item, we will cover up to an additional twentyfour (24) months after both the original manufacturer’s (or U.S. store brand)
warranty and the purchased service contract or extended warranty coverage
period end. If your service contract or extended warranty exceeds twenty-four
(24) months, this coverage does not apply.
• If you do not have an additional service contract or an optional extended
warranty, this extended warranty benefit commences the day after your
Guide to Benefits

8

original manufacturer’s (or U.S. store brand) warranty expires.
C. Coverage limitations:
• The maximum benefit for repair or replacement shall not exceed the actual
amount charged on your covered card or $10,000, whichever is less.
• If either the original manufacturer’s (or U.S. store brand) warranty or the service
contract covers more than twenty-four (24) months, this benefit will not apply.
• We or our administrator will decide if a covered failure will be repaired or
replaced, or whether you will be reimbursed up to the amount paid for the
item. Items will be replaced with those of like kind and quality. However, we
cannot guarantee to match exact color, material, brand, size, or model.
D. What is NOT covered:
• Used or antique items; collectibles of any kind (such as items designed for
people to collect or items that over time become collectibles) that do not
come with a manufacturer’s warranty (repair or replacement amount will not
include market value at time of claim); recycled, previously owned, refurbished,
rebuilt, or remanufactured items; product guarantees (e.g., glass breakage).
• F loor models that do not come with an original manufacturer’s warranty.
•M
 otorized vehicles, including, but not limited to, automobiles, watercraft/
boats, aircraft, and motorcycles, or their motors, equipment, or accessories.
Parts, if purchased separately, may be covered.
• L and, any buildings (including, but not limited to, homes and dwellings),
permanently installed items, fixtures, or structures.
•P
 lants, shrubs, animals, pets, consumables, and perishables.
• Professional services (including, but not limited to, the performance or
rendering of labor or maintenance; repair or installation of products, goods
or property; professional advice of any kind, including, but not limited to,
information/services or advice secured from any help or support line; or
technical support for software, hardware, or any other peripherals).
• Application programs, operating software, and other software.
• All types of media with stored data or music (including, but not limited to,
computer software, DVDs, video cassettes, CDs, film and audio cassettes).
• Any shipping charges, transportation and delivery charges, or promised
time frames for delivery, whether or not stated or covered by the
manufacturer’s warranty.
•D
 irect or indirect loss resulting from any Acts of God (including, but not
limited to, flood, hurricane, lightning, and earthquake).
• Indirect or direct damages resulting from a covered loss.
•M
 echanical failure arising from product recalls.
• Trip, service, or diagnostic charges in the absence of any covered repairs or
verified failure.
• L oss resulting from war or hostilities of any kind (including, but not limited
to, invasion, terrorism, rebellion, insurrection, riot, or civil commotion);
confiscation or damage by any government, public authority, or customs
official; risks of contraband, illegal activity, or acts.
•M
 echanical failures caused by normal wear and tear or gradual deterioration
where no failure has occurred.
• Items purchased for resale, professional, or commercial use.
•M
 echanical failures caused by lack of maintenance/service.
• L osses caused by power surge, contamination by radioactive or hazardous
substances, including mold.
•P
 hysical damage to the item.
• Any exclusion listed in the original manufacturer’s warranty.
E. How to file a claim:
• Visit www.mycardbenefits.com or call 1-800-Mastercard to open a claim.
You must report the claim within sixty (60) days of the failure or the claim
may not be honored.
• S ubmit the following documentation within one hundred and eighty (180)
days from the date of failure or the claim may not be honored:
- Receipt showing covered item(s).
- Statement showing covered item(s).
- Itemized purchase receipt(s).
9

Diners Club Card Premier

- Original manufacturer’s (or U.S. store brand) warranty.
- Service contract or optional extended warranty, if applicable.
- Itemized repair estimate from a factory authorized service provider.
- Any other documentation that may be reasonably requested by us or our
administrator to validate a claim.

Mastercard ID Theft Protection™

Program Description:
Mastercard ID Theft Protection (IDT) provides you with access to a number
of identity theft resolution services, should you believe you are a victim of
identity theft. This product offering will alert you about possible identity theft
by monitoring the surface, dark and deep web, searching for compromised
credentials and potentially damaging use of your registered personal
information in order to detect fraud at its inception.
Eligibility:
All Mastercard consumer credit cardholders in the US are eligible for
this coverage.
Access:
Simply contact 1-800-Mastercard if you believe you have been a victim of
identity theft.
Services provided:
Services provided are on a 24-hour basis, 365 days a year. In order
to receive the following services, you must enroll at
https://mastercardus.idprotectiononline.com/. The services include:
•O
 nline Monitoring Dashboard (requires activation): The online
monitoring dashboard is the primary user interface for cardholders. It
serves as a repository of all the personally identifiable information (PII) data
the cardholder wants to monitor, tracks and displays cardholders’ risk score,
and provides access to identity protection tips. It is also the platform for
cardholders to respond to identity monitoring alerts.
• Monthly Risk Alert/Newsletter: Cardholders will receive a monthly
newsletter with information on the cardholder’s risk score, and articles
pertaining to good identity protection practices.
• Identity Monitoring: IDT searches the internet to detect compromised
credentials and potentially damaging use of your personal information, and
alerts you via email so that you can take immediate action. This platform
utilizes automated monitoring and human threat intelligence from cyber
operations agents monitoring threat actors and their tactics on the dark
and deep web where personal data is bought and sold. Data elements that
can be monitored are:
- Email addresses
- Debit/credit cards/prepaid cards
- Bank accounts
- Web logins; username and password
- Medical insurance cards
- Drivers’ license
- Loyalty cards
- Affinity cards
- Passport number
- Vehicle insurance cards
- Social Security number
To take advantage of this service, the cardholder must enter the personal
information they wish to monitor on the dashboard.
• Resolution Services: You will have access to a team of identity theft
resolution specialists, available 24 hours a day, 365 days a year to help
resolve your identity theft incident and prevent further damage. The
resolution specialists are native speakers of English, French and Spanish, and
are based out of Bethesda, Maryland. Cardholders are given the option to
Guide to Benefits

10

sign limited power of attorney (LPOA) to the specialist, to allow them to
conduct resolution activities on the cardholders’ behalf, including contacting
police, credit agencies, and other authorities, translating information, and
closing and replacing breached accounts.
• Lost Wallet Assistance: Cardholders will be provided assistance with notifying
the appropriate issuing authorities to cancel and replace stolen or missing items,
such as their debit/credit cards, driver’s license, Social Security card, and passport.
• Single Bureau Credit Monitoring: Cardholders’ TransUnion credit file
will be monitored for changes that could indicate fraud such as new credit
inquiries, an address change or new credit account(s) opened in their name.
An alert notification via email will be sent anytime a hard inquiry is made on
the cardholders’ TransUnion credit file so they can take immediate action to
minimize damage.
To take advantage of this service, the cardholder must enter their Social
Security number on the dashboard and pass credit authentication.
• Financial Account Takeover: IDT monitors cardholder’s high-risk
transactions with more than 300 of the nation’s largest companies to uncover
and thwart account takeover attempts. Monitored transactions include:
- Debit/credit cards/prepaid cards
- Bank accounts
- Brokerage accounts
- Healthcare portals
- Workplace intranets
- Other services (e.g., peer-to-peer fund transfers)
	To take advantage of this service, the cardholder must enter the accounts
they wish to protect on the dashboard.
•U
 RL and Domain Monitoring: URL and domain monitoring allows
cardholder to enter up to 10 domain or URL names related to cardholder’s
business. This service will monitor the domain and URL names for any
compromised email addresses associated with the domain or URL names and
if compromised email addresses are found in a data breach, this service will
alert the registered cardholder via email and provide information regarding the
specific email address that was breached along with information about the date
found and source (provided that this information is available).
For more information regarding the services stated above and additional
information, please visit https://mastercardus. idprotectiononline.com/.
Charges:
There is no charge for these services, they are provided by your
financial institution.
Services not provided:
• When it is determined you have committed any dishonest, criminal,
malicious or fraudulent act.
• When your financial institution or card issuer which provides this
service, has investigated the event and deemed you are responsible
for the charge or event.
• When any theft or unauthorized use of an account by a person to whom
the account has been entrusted has been committed.
Program Provisions for Mastercard ID Theft Protection:
This service applies only to you, the named Mastercard cardholder. You shall
use due diligence and do all things reasonable to avoid or diminish any loss
or damage to property protected by the program. The provider, Generali
Global Assistance, relies on the truth of statement made in the affidavit or
declaration from each cardholder. This service is provided to eligible Mastercard
cardholders at no additional cost and is in effect for acts occurring while the
program is in effect. The terms and conditions contained in this program Guide
may be modified by subsequent endorsements. Modifications to the terms and
conditions may be provided via additional Guide mailings, statement inserts, or
statement messages. Mastercard or your financial institution can cancel or nonrenew these services, and if we do, we will notify you at least thirty (30) days in
advance. If the provider non-renews or cancels any services provided to eligible

11

Diners Club Card Premier

Mastercard cardholders, you will be notified within 30–120 days before the
expiration of the service agreement. In the event substantially similar coverage
takes effect without interruption, no such notice is necessary. For general
questions regarding these services, please contact 1-800-Mastercard.

Travel Assistance Services

Rely on Travel Assistance Services when you’re away from home.
Travel Assistance Services is your guide to many important services you
may need when traveling. Benefits are designed to assist you or your travel
companions when you’re traveling 50 miles or more from home.* This is
reassuring, especially when visiting a place for the first time or not speaking
the language. For services, call 1-800-Mastercard. Enrollment is automatic and
the assistance service is free to cardholders. Please keep in mind that you will
be responsible for the fees incurred for professional or emergency services
requested of Travel Assistance Services (e.g., medical or legal bills).
* Travel Assistance Services are available worldwide, with the exception of
those countries and territories which may be involved in an international
or internal conflict, or in those countries and territories where the existing
infrastructure is deemed inadequate to guarantee service. You may contact
us prior to embarking on a covered trip to confirm whether or not services
are available at your destination(s).
MasterTrip® Travel Assistance:
Before you begin your trip, MasterTrip provides information on travel
requirements including documentation (e.g., visas, passports), immunizations or
currency exchange rates. The exchange rate provided may differ from the exact
rate that issuers use for transactions on your card. Information on exchange
rates for items billed on your statement should be obtained from the financial
institution that issued your card. MasterTrip will also help you locate any lost or
stolen travel materials, including luggage. This is not an insurance policy for lost/
stolen luggage and we do not reimburse you for a permanent loss. If you have
a travel emergency and need cash, MasterTrip can arrange to transfer up to
$5,000 from a family member, friend, or business account. This service does
not provide maps or information regarding road conditions.
Travel Services Medical Assistance:
Provides a global referral network of general physicians, dentists, hospitals and
pharmacies. We can also help you refill prescriptions with local pharmacists
(subject to local laws).
In the event of emergencies, a stateside physician or nurse can be contacted
for consultation with the local medical staff and to monitor your condition. If
you are hospitalized, we can arrange to have messages relayed home, transfer
you to another facility if medically necessary, or have a family member or close
friend brought to your bedside if you have been traveling alone (at cardholder’s
expense). If a tragedy occurs, we’ll assist in securing travel arrangements for you
and your travel companion(s).
MasterLegal® Referral Service:
This service provides you with English-speaking legal referrals or consults with
appropriate embassies and consulates regarding your situation.
This service will assist in transfers up to $5,000 in cash from a family member,
friend or business to cover legal fees or to post bail.There is no charge for referral
services; however, legal and bail fees are your responsibility.
Master RoadAssist® Roadside Service:
(Available only when traveling in the 50 United States and the
District of Columbia)
If your car breaks down on the road, just call 1-800-Mastercard and tell us
where you are. We’ll send someone to the rescue. This is not only reassuring,
but it may also save you money because fees for many services (e.g., jumpstarts,
towing, gas delivery, and tire changes) are pre-negotiated. Road service fees will
be automatically billed to your Mastercard account.
Guide to Benefits

12

You are responsible for emergency road service charges incurred by towing
facilities responding to your dispatch, even if you are not with your vehicle (or it’s
gone) when the tow truck arrives. Mastercard International is not responsible or
liable for the service the towing facility provides. Towing facilities are independent
contractors, solely liable for their services.
Emergency road service is not available in areas not regularly traveled, in “off
road” areas not accessible by ordinary towing vehicles, or for over one-ton
capacity trailers, campers or if you have a rental car, be sure to call the rental car
agency before you call 1-800-Mastercard, as many rental agencies have special
procedures regarding emergency road service assistance.

Mastercard Travel & Lifestyle Services

As a World or World Elite Mastercard® cardholder, you have access to
Mastercard® Travel & Lifestyle Services, a suite of benefits, amenities and
upgrades, preferential treatment and premium travel offers from best-in-class
travel companies across hotels, air travel, tours, cruises, car rentals and more*.
Get the most from all your travels whether you are planning a last-minute
getaway or your dream family vacation. As a Mastercard® cardholder, you
have access to a lifestyle manager that will help you plan your vacation complimentary, at your convenience, 24 hours a day, 7 days a week. Plus, take
advantage of the Mastercard Lowest Hotel Rate Guarantee** and Mastercard
Hotel Stay Guarantee*** which deliver value and peace of mind.
* Travel & Lifestyle Services are provided by Ten Lifestyle Group plc. No travel
bookings are being made by Mastercard, nor is Mastercard acting as a travel
agency or providing any travel consultation or advice, in connection with
Mastercard Travel & Lifestyle Services.
** M
 astercard Lowest Hotel Rate Guarantee: If you book a qualifying ‘prepaid
hotel rate’ or ‘pay at local hotel rate’ hotel stay through the Mastercard
Travel & Lifestyle Services program either online or through an authorized
program agent using your Mastercard and then find the same hotel room
type, in the same hotel, for the same dates, the same number of children
and adults, at a lower price online, before taxes and fees, we’ll refund you
the difference. To receive a refund you must submit a claim as described in
the terms and conditions prior to your stay and at least seventy-two (72)
hours before the date of your reservation check-in.
***Mastercard Hotel Stay Guarantee:The Mastercard Travel & Lifestyle Services
Hotel Stay Guarantee is simple – if you book your three star or higher hotel
stay through the Mastercard Travel & Lifestyle Services program and you
encounter problems with the hotel, contact Ten Lifestyle Group plc, the
designated travel agent for the Mastercard Travel & Lifestyle Services program
at toll free (US) 1-800-336-6420 during your stay and a Ten lifestyle manager
will attempt to make it right for the remainder of your stay by working directly
with the hotel to try to resolve your issue or will make efforts to find you
comparable accommodations.
Certain terms, conditions and exclusions apply. Full details are available at
www.mastercard.com/world.

Mastercard Airport ConciergeTM

Your passport to the finer side of air travel.
Enjoy a 15% savings on Airport Meet and Greet services. Arrange for a
personal, dedicated Meet and Greet agent to escort you through the airport
on departure, arrival or any connecting flights at over 700 destinations
worldwide 24 hours a day, 7 days a week, 365 days a year. There are also
certain airports where you can be expedited through the security and/or the
immigration process. To reserve Mastercard Airport Concierge services visit
www.mastercard.com/airportconcierge or consult your travel advisor.

13

Diners Club Card Premier

Mastercard Global ServiceTM

Mastercard Global Service provides worldwide, 24-hour assistance with lost and
stolen card reporting, emergency card replacement, and emergency cash advance.
Call Mastercard Global Service immediately to report your card lost or stolen
and to cancel the account. If you need to make purchases or arrange for a cash
advance, with your issuer’s approval, you can receive a temporary card the next
day in the United States, and within two business days almost everywhere else.
Remember, if you report your card lost or stolen, you will not be responsible
for any unauthorized transactions on your account.
In the United States (including all 50 states, the District of Columbia, the U.S.
Virgin Islands, and Puerto Rico) and Canada, call 1-800-307-7309.
When out-of-country and in need of assistance, you can easily reach a
specially trained Mastercard Global Service Representative who can help you
24 hours a day, 365 days a year, in any language. You can call toll-free from
over 80 countries worldwide. Some of the key toll-free Mastercard Global
Service telephone numbers are:
Australia

1-800-120-113

Mexico

Austria

0800-070-6138

Netherlands

001-800-3077309
0800-022-5821

France

0-800-90-1387

Poland

0-0800-111-1211

Germany

0800-071-3542

Portugal

800-8-11-272

Hungary

06800-12517

900-822-756

Ireland

1-800-55-7378

Italy

800-870-866

Spain
United
Kingdom
Virgin Islands

0800-96-4767
1-800-307-7309

For additional information, or for country-specific, toll-free telephone numbers
not listed above, visit our website at www.mastercard.com
or call the United States collect at 1-636-722-7111.
Account Information and Card Benefits:
When in the United States, contact your card issuer directly for account
information and 1-800-Mastercard for card benefits. When traveling outside
the U.S., call Mastercard Global Service to access your card issuer for account
information or to access any of your card benefits.
ATM Locations:
Call 1-877-FINDATM (1-877-346-3286) to find the location of a nearby ATM
in the Mastercard ATM Network accepting Mastercard®, Maestro®, and Cirrus®
brands. Also, visit our website at www.mastercard.com to use our ATM locator.
You can get cash at over two million ATMs worldwide. To enable cash access,
be sure you know your Personal Identification Number (PIN) before you travel.

Cellular Wireless Telephone Protection
Please see the ‘Key Terms’ section for the terms used throughout this benefit.

Evidence of Coverage
Refer to Key Terms for the definitions of you, your, we, us, our, and words that
appear in bold.This EOC is subject to the Legal Disclosures set forth below.
A. To get coverage:
You must charge your monthly eligible cellular wireless telephone bill to
your covered card. You are eligible for coverage the first day of the calendar
month following the payment of your eligible cellular wireless telephone bill
to your covered card. If you pay an eligible cellular wireless telephone bill with
your covered card and fail to pay a subsequent bill to your covered card in a

Guide to Benefits

14

particular month, your coverage period changes as follows:
1.Your coverage is suspended beginning the first day of the calendar month
following the month of nonpayment to your covered card; and
2. Your coverage resumes on the first day of the calendar month following the
date of any future payment of your eligible cellular wireless telephone bill
with your covered card.
B. The kind of coverage you receive:
•R
 eimbursement for the actual cost to replace or repair a stolen or damaged
eligible cellular wireless telephone.
•C
 overage ends on the earliest of: The date you no longer are a cardholder;
the date the covered card is determined to be ineligible by the participating
organization; the date the participating organization ceases to pay premium
on the group policy; the date the participating organization ceases to
participate in the group policy; the date the group policy is terminated.
C. Coverage limitations:
Coverage for a stolen or damaged eligible cellular wireless telephone is subject to
the terms, conditions, exclusions, and limits of liability of this benefit.The maximum
liability is $600 per claim for World Mastercard, and $1,000 per covered card per
12-month period. Each claim is subject to a $50 deductible. Coverage is limited to
two (2) claims per covered card per 12-month period.
Coverage is excess of any other applicable insurance or indemnity available
to you. Coverage is limited only to those amounts not covered by any other
insurance or indemnity. In no event will this coverage apply as contributing
insurance. This “noncontribution” clause will take precedence over a similar
clause found in other insurance or indemnity language.
D. What is NOT covered
The following items are excluded from coverage under the group policy:
• E ligible cellular wireless telephone accessories other than the standard
battery and standard antenna provided by the manufacturer;
• E ligible cellular wireless telephones purchased for resale or for professional
or commercial use;
• Eligible cellular wireless telephones that are lost or mysteriously disappear;
• E ligible cellular wireless telephones under the care and control of a
common carrier, including, but not limited to, the U.S. Postal Service,
airplanes or delivery service;
• Eligible cellular wireless telephones stolen from baggage unless hand-carried and
under the eligible person’s supervision or under the supervision of the eligible
person’s traveling companion who is previously known to the eligible person;
• Eligible cellular wireless telephones stolen from a construction site;
• E ligible cellular wireless telephones which have been rented or leased from a
person or company other than a cellular provider;
• E ligible cellular wireless telephones which have been borrowed;
• Eligible cellular wireless telephones that are received as part of a pre-paid plan;
•C
 osmetic damage to the eligible cellular wireless telephone or damage that
does not impact the eligible cellular wireless telephone’s ability to make or
receive phone calls (including minor screen cracks and fractures less than 2
inches in length that do not prevent the ability to make or receive phone
calls or to use other features related to making or receiving phone calls);
•D
 amage or theft resulting from abuse, intentional acts, fraud, hostilities of
any kind (including, but not limited to, war, invasion, rebellion or insurrection),
confiscation by the authorities, risks of contraband, illegal activities, normal
wear and tear, flood, earthquake, radioactive contamination, or damage from
inherent product defects or vermin;
•D
 amage or theft resulting from mis-delivery or voluntary parting from the
eligible cellular wireless telephonee;
•R
 eplacement of eligible cellular wireless telephone(s) purchased from
anyone other than a cellular service provider’s retail or internet store that
has the ability to initiate activation with the cellular service provider;
• Taxes, delivery or transportation charges or any fees associated with the
service provided; and

15

Diners Club Card Premier

• Losses covered under a warranty issued by a manufacturer, distributor or seller.
In addition, we shall not be deemed to provide coverage and we shall not
be liable to pay any claim or provide any benefit under the group policy to
the extent that the provision of such coverage, payment of such claim or
provision of such benefit would expose us, our parent company or its ultimate
controlling entity to any sanction, prohibition or restriction under United
Nations resolutions or the trade or economic sanctions, laws or regulations of
the European Union or the United States of America.
E. How to file a claim
• Call 1-800-Mastercard or go to www.mycardbenefits.com to open a
claim.You must report the claim within 90 days of the loss, or as soon as
reasonably possible, or the claim may not be honored. Upon receipt of a
notice of claim, we will provide you with the necessary instructions for filing
proof of loss. Written proof of loss must be submitted to our administrator
within 120 days of the loss or the claim may not be honored. Required
documentation may include but is not limited to the following:
• Your card statement reflecting the monthly eligible cellular wireless
telephone payments for the month preceding the date the eligible cellular
wireless telephone was stolen or suffered damage;
• A copy of your current wireless service provider’s billing statement;
• If a claim is due to damage, a copy of the repair estimate and
photos of the damage;
• If the claim is due to theft, a copy of the police report filed within 48 hours
of the theft; and
• Any other documentation or information reasonably requested by us to
support the claim.
Please see the ‘Legal Disclosure’ section for all disclosures for
this benefit.

Account and Billing Information

Important: Contact your card-issuing financial institution directly for
questions concerning your account, such as account balance, credit line,
billing inquiries (including transaction exchange rates), merchant disputes,
or information about additional services not described in this Guide. Your
financial institution’s phone number should be available on your monthly billing
statement or on the back of your card.
Reminder: Please refer to the Legal Disclosure section.

Legal Disclosure

This Guide to Benefits is not, by itself, a policy or contract of insurance or other
contract. Benefits are provided to you, the accountholder, at no additional charge.
Non-insurance services may have associated costs, which will be your responsibility
(for example, legal referrals are free, but the lawyer’s fee is your responsibility).
The insurance benefits are provided under a group policy issued by New
Hampshire Insurance Company, an AIG company. This Guide to Benefits is a
summary of benefits provided to you. The attached Key Terms and EOC is
governed by the group policy.
Effective date of benefits: Effective October 1, 2019, this Guide to Benefits
replaces all prior disclosures, program descriptions, advertising, and brochures
by any party. The Policyholder and the insurer reserve the right to change the
benefits and features of these programs at any time. Notice will be provided
for any changes.
Cancellation: The Policyholder can cancel these benefits at any time or choose
not to renew the insurance coverage for all cardholders. If the Policyholder does
cancel these benefits, you will be notified in advance. If the insurance company
terminates, cancels, or chooses not to renew the coverage to the Policyholder,
you will be notified as soon as is practicable. Insurance benefits will still apply
for any benefits you were eligible for prior to the date of such terminations,
Guide to Benefits

16

cancellation, or non-renewal, subject to the terms and conditions of coverage.
Benefits to you: These benefits apply only to the cardholder whose cards
are issued by U.S. financial institutions. The United States is defined as the fifty
(50) United States, the District of Columbia, American Samoa, Puerto Rico,
Guam, and the U.S. Virgin Islands, unless otherwise noted. No person or entity
other than the cardholder shall have any legal or equitable right, remedy, or
claim for benefits, insurance proceeds and damages under or arising out of
these programs. These benefits do not apply if your cardholder privileges have
been cancelled. However, insurance benefits will still apply for any benefit
you were eligible for prior to the date that your account is suspended or
cancelled, subject to the terms and conditions of coverage herein.
Transfer of rights or benefits: No rights or benefits provided under these
insurance benefits may be assigned without the prior written consent of the
claim administrator for these benefits.
Misrepresentation and Fraud: Any coverage benefits hereunder shall be
void if the cardholder has concealed or misrepresented any material facts
concerning this coverage.
Dispute Resolution – Arbitration: This EOC requires binding arbitration if
there is an unresolved dispute concerning this EOC (including the cost of, lack
of or actual repair or replacement arising from a loss or breakdown). Under
this Arbitration provision, You give up your right to resolve any dispute arising
from this EOC by a judge and/or a jury. You also agree not to participate as
a class representative or class member in any class action litigation, any class
arbitration or any consolidation of individual arbitrations. In arbitration, a
group of three (3) arbitrators (each of whom is an independent, neutral third
party) will give a decision after hearing the parties’ positions. The decision of
a majority of the arbitrators will determine the outcome of the arbitration
and the decision of the arbitrators shall be final and binding and cannot be
reviewed or changed by, or appealed to, a court of law.
To start arbitration, the disputing party must make a written demand to the
other party for arbitration. This demand must be made within one (1) year
of the earlier of the date the loss occurred or the dispute arose. The parties
will each separately select an arbitrator. The two (2) arbitrators will select a
third arbitrator called an “umpire.” Each party will each pay the expense of
the arbitrator selected by that party. The expense of the umpire will be shared
equally by the parties. Unless otherwise agreed to by the parties, the arbitration
will take place in the county and state in which you live. The arbitration shall
be governed by the Federal Arbitration Act (9 U.S.C.A. § 1 et. seq.) and not
by any state law concerning arbitration. The rules of the American Arbitration
Association (www.adr.org) will apply to any arbitration under this EOC.
The laws of the state of New York (without giving effect to its conflict of law
principles) govern all matters arising out of or relating to this EOC and all
transactions contemplated by this EOC, including, without limitation, the validity,
interpretation, construction, performance and enforcement of this EOC.
Due Diligence: All parties are expected to exercise due diligence to
avoid or diminish any theft, loss or damage to the property insured under these
programs. Due Diligence shall mean the performance of all vigilant activity,
attentiveness, and care that would be taken by a reasonable and prudent person
in the same or similar circumstances in order to guard and protect the item.
Subrogation: If payment is made under these benefits, we are entitled to
recover such amounts from other parties or persons. Any party or cardholder
who receives payment under these benefits must transfer to us his or her
rights to recovery against any other party or person and must do everything
necessary to secure these rights and must do nothing that would jeopardize
them, or these rights will be recovered from the cardholder.
Salvage: If an item is not repairable, our administrator may request that you
and/or the cardholder send the item to our administrator for salvage at your
and/or cardholder’s expense. Failure to remit the requested item for salvage to
our administrator may result in denial of the claim.
Other Insurance: Coverage is secondary to and in excess of any other
applicable insurance or indemnity available to you. Coverage is limited to only
17

Diners Club Card Premier

those amounts not covered by any other insurance or indemnity. Coverage
is subject to the conditions, limitations, and exclusions described in this
document. In no event will this coverage apply as contributing insurance. This
other insurance clause will take precedence over a similar clause found in
other insurance or indemnity language.
In no event will these insurance benefits apply as contributing insurance.
The non-contribution insurance clause will take precedence over the noncontribution clause found in any other insurance policies.
Severability of Provisions: If in the future any one or more of the
provisions of this Guide to Benefits is, to any extent and for any reason,
held to be invalid or unenforceable, then such provision(s) shall be deemed
severable from the remaining provisions of the Guide. In that event, all other
provisions of this Guide shall remain valid and enforceable. Benefits listed in
this Guide to Benefits are subject to the conditions, limitations, and exclusions
described in each benefit section. Receipt and/or possession of this Guide to
Benefits does not guarantee coverage or coverage availability.
This Guide is intended as a summary of services, benefits, and coverages
and, in case of a conflict between the Guide and any any master insurance
policy(ies) or group policy or actual offering shall control. Provision of services
is subject to availability and applicable legal restrictions. The Guide to Benefits
contains the entire agreement between You and Us. Representations or
promises made by anyone that are not contained in the Guide to Benefits are
not a part of your coverage.
Washington Residents: For Washington residents only, Evidence of Coverage
(EOC) means the section of this Guide to Benefits that describes the terms,
conditions, and exclusions of your coverage. The EOC, Key Terms, and Legal
Disclosures are in the entire agreement between you and us. Representations
or promises made by anyone that are not contained in the EOC, Key Terms, or
Legal Disclosures are not part of your coverage. In case of a conflict between
this Guide to Benefits and the group policy, the Guide to Benefits shall control.

Guide to Benefits

18

19

Diners Club Card Premier

Diners Club and Diners Club International with the Split Circle
Device are registered trademarks of Diners Club International Ltd.
To file a claim, call 1-800-Mastercard: 1-800-627-8372,
or en Español: 1-800-633-4466.
Visit our Web site at www.mastercard.com.

Guide to Benefits

20

Notes
_______________________________________________________________
_______________________________________________________________
_______________________________________________________________
_______________________________________________________________
_______________________________________________________________
_______________________________________________________________
_______________________________________________________________
_______________________________________________________________
_______________________________________________________________
_______________________________________________________________
_______________________________________________________________
_______________________________________________________________
_______________________________________________________________
_______________________________________________________________
_______________________________________________________________
_______________________________________________________________
_______________________________________________________________
_______________________________________________________________
_______________________________________________________________
_______________________________________________________________
_______________________________________________________________
_______________________________________________________________
_______________________________________________________________
_______________________________________________________________

21

Diners Club Card Premier

Diners Club and Diners Club International with the Split Circle Device are
registered trademarks of Diners Club International Ltd.

Banking products and services are subject to bank and credit approval and are
provided by BMO Harris Bank N.A. Member FDIC.
© 2020 BMO Harris Bank N.A. (11/20)		

50347166

20-2103

Mastercard, Maestro, and Cirrus are registered trademarks and the circles design
are trademarks of Mastercard International Incorporated.

